                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

 Case Number: 109110067                                                                    Page 10f1



        . An anonymous complainant allegedthat a PI, 1 told students to claim to be majoring in a Science,
         .Technology, Engineering or Mathematics (STEM) discipline in order to qualify for an NSF
          STEM scholarship, regardless oftheir actual intended major?

         Our investigation, which included review of pertinent financial and scholarship documents, as
         well as interviews of relevant Program Officers, disclosed no evidence of fraud or other
         wrongdoing.

         Accordingly, this case is closed.




NSF OIG Form 2 (11102)
